U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 13, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Daniel Basrbosa, et al. v. Department of Homeland Security, et al.,
S.CtNo. 19-517

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 18,
2019, and placed on the docket on October 22, 2019. The government's response is due on
November 21, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 23, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-05 17
BARBOSA, DANIEL, ET AL.
DEPARTMENT OF HOMELAND SECURITY, ET AL.

AMANDA FLUGG DAVID OFF
SULLIVAN & CROMWELL LLP
1700 NEW YORK AVENUE, NW
SUITE 700
WASHINGTON, DC 20006
202-956-7500
DAVIDOFFA@SULLCROM.COM
JEROME WESEVICH
TEXAS RIOGRANDE LEGAL AID
1331 TEXAS AVENUE
EL PASO, TX 79901
915-585-5120
JWE SE VICH@TRLA. ORG

